<html>
<title> - OVERSIGHT OF THE STATE DEPARTMENT'S ANTITERRORISM ASSISTANCE PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
  OVERSIGHT OF THE STATE DEPARTMENT'S ANTITERRORISM ASSISTANCE PROGRAM

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 4, 2008

                               __________

                           Serial No. 110-184

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
51-568                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
JOHN A. YARMUTH, Kentucky            TODD RUSSELL PLATTS, Pennsylvania
BRUCE L. BRALEY, Iowa                JOHN J. DUNCAN, Jr., Tennessee
BETTY McCOLLUM, Minnesota            MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                KENNY MARCHANT, Texas
CHRIS VAN HOLLEN, Maryland           LYNN A. WESTMORELAND, Georgia
PAUL W. HODES, New Hampshire         PATRICK T. McHENRY, North Carolina
PETER WELCH, Vermont                 VIRGINIA FOXX, North Carolina
------ ------
                       Dave Turk, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 4, 2008.....................................     1
Statement of:
    Johnson, Charles M., Jr., Director, International Affairs and 
      Trade, U.S. Government Accountability Office; and Gina 
      Abercrombie-Winstanley, Deputy Coordinator, Programs, 
      Policy, Budget and Operations, Office of the Coordinator 
      for Counterterrorism, accompanied by Lynda Tibbetts, Acting 
      Director, Office of Antiterrorism Assistance, Bureau of 
      Diplomatic Security........................................     7
        Abercrombie-Winstanley, Gina.............................    35
        Johnson, Charles M., Jr..................................     7
Letters, statements, etc., submitted for the record by:
    Abercrombie-Winstanley, Gina, Deputy Coordinator, Programs, 
      Policy, Budget and Operations, Office of the Coordinator 
      for Counterterrorism, prepared statement of................    37
    Johnson, Charles M., Jr., Director, International Affairs and 
      Trade, U.S. Government Accountability Office, prepared 
      statement of...............................................     9
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     3


  OVERSIGHT OF THE STATE DEPARTMENT'S ANTITERRORISM ASSISTANCE PROGRAM

                              ----------                              


                        WEDNESDAY, June 4, 2008

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Welch, Shays, Platts, 
Duncan, and Foxx.
    Staff present: Dave Turk, staff director; Andrew Su, 
professional staff member; Davis Hake, clerk; Dan Hamilton, 
fellow; Rebecca Macke, graduate intern; A. Brooke Bennett, 
minority counsel; Nick Palarino, minority senior investigator 
and policy advisor; Todd Greenwood, minority professional staff 
member; and Bridget Mahoney and Jeanne Neal, minority interns.
    Mr. Tierney. Good morning.
    A quorum being present, the Subcommittee on National 
Security and Foreign Affairs hearing entitled, ``Oversight of 
the State Department's Antiterrorism Assistance Program,'' will 
come to order.
    I ask unanimous consent that only the chairman and the 
ranking member of the subcommittee be allowed to make opening 
statements, and without objection, that is so ordered.
    And I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee will be allowed to submit a written statement for 
the record. That is also ordered without objection.
    Good morning everybody, and thank you for joining us here. 
This hearing, obviously, is on the Antiterrorism Assistance 
Program, so I want to start by thanking the ranking member, 
Representative Shays, for actually requesting this hearing and 
for asking for the Government Accountability Office's report, 
asking them to take a look at that.
    This program is not one I venture to guess that many 
people, many American people or many Members of Congress for 
that matter, probably know enough about. I think it's important 
for a number of reasons, which is why we agreed to have this 
hearing and followup on it.
    The first reason of importance is that the Antiterrorism 
Assistance Program is the State Department's largest 
counterterrorism program. It received $171 million in fiscal 
year 2007.
    Second, its geographic reach is extensive, having trained 
police from about 140 countries since the program's inception 
in 1983.
    And third, the program's focus, providing training to the 
police from other countries, is one that has received scant 
attention during this situation where we're dealing with terror 
on a regular basis. While we continue to fund submarines at the 
cost of $2 billion apiece and a new fleet of fighter planes 
that will cost a quarter of a trillion dollars, efforts that 
have proven to pay real dividends today too often have to fight 
for a few extra dollars here and there.
    During this subcommittee's most recent oversight trip to 
Afghanistan and Pakistan in March of this year, we heard 
repeatedly from U.S. military officials and diplomats, from 
Afghan and Pakistani officials, from business leaders and from 
others about the vital importance of improving the police 
forces in those countries. These officials repeatedly stress 
that having a fair and professional police force free from 
corruption is an absolutely vital bulwark against law-and-order 
voids that too often result in being filled by al Qaeda or 
Taliban or like forces. Helping to train and professionalize 
law enforcement in other countries, as well as providing modern 
police technology and equipment, can have a powerful impact in 
supporting our partner nations, many of which do not have the 
means or the expertise to build effective forces on their own.
    I want to thank our two State Department witnesses for your 
service to our country and for being with us today to share 
your experiences and your expertise in running the Department's 
Antiterrorism Assistance Program.
    I also thank our witness from the Government Accountability 
Office. To judge whether this program or any other is as 
efficient and cost effective as possible, we need more than 
just anecdotal evidence or raw information on the number of 
courses that are offered or police officers that are trained. 
We greatly appreciate the work of the GAO's extensive audit and 
investigatory functions here and look forward to your 
testimony. Through your work, you can help ensure that we're 
getting the best bang for our buck.
    They found some room for improvement in the Antiterrorism 
Assistance Program, and I'm really encouraged that the State 
Department views this critique as constructive. I think that's 
a great way to move forward.
    Instituting best practices and ensuring proper oversight is 
not only important to America and the taxpayers in this 
country, but it's also to ensure that we're maximizing global 
efforts to stop terrorist acts and therefore enhancing our own 
national security.
    My hope is that by the end of this hearing, we'll all know 
a lot more about the State Department's Antiterrorism 
Assistance Program than we knew coming in. And I also hope that 
the discussion we're about to have will help inform the ongoing 
broader debate about the most effective way to deal with a 
terrorist threat currently facing our country and our world.
    So, again, let me thank all of you for being here. I look 
forward to your testimony.
    And at this point, I would like to invite Mr. Shays to make 
his opening remarks.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T1568.001
    
    [GRAPHIC] [TIFF OMITTED] T1568.002
    
    Mr. Shays. Thank you, Mr. Chairman, for holding this 
hearing on the Department of State's Antiterrorism Assistance 
[ATA] Program. I appreciate your willingness to hold this 
hearing, and I especially appreciate the efforts by your staff 
director, David Turk, and the rest of your staff in working so 
closely with minority staff to bring this hearing to fruition. 
I might also add, I appreciate that all briefing materials for 
this hearing have been prepared jointly, which is testament to 
the bipartisan nature of this hearing.
    While some might say the ATA Program is only several 
hundred million dollars, it is an important program because it 
is a critical part of the U.S. effort to combat terrorism. It 
is also important because the program is focused on 
coordinating closely with other countries to increase their 
counterterrorism capacity. This appears to be exactly the type 
of soft power discussion by Richard Armitage and Joseph Nye in 
their recent report, something that we in Congress should be 
discussing and promoting.
    Since September 11th, fighting international terrorism has 
been a top priority for our Nation. The extraordinary efforts 
of the men and women in our armed forces deployed around the 
world, our Homeland Security personnel, and our first 
responders right here at home are some of the most visible 
examples of this effort. However, they are not the only ones in 
the front lines of this fight.
    The Department of State's ATA Program is another mechanism 
for the United States to help our allies and enhance their own 
counterterrorism capabilities by providing training and 
equipment to deter terrorists. This includes in-country small-
scaled training programs that are tailored to the specific 
needs of law enforcement officials in those countries. The 
program offers courses on everything from crisis management and 
cyber terrorism to dignitary detection, bomb detection and 
hostage response. The ATA Program, with its local, tailored 
hands-on training, is providing a specific benefit to our 
allies and supporting large efforts against terrorism 
worldwide.
    The ATA Program has included providing resources for the 
U.S. Trans-Sahara Counterterrorism Initiative in North Africa 
where we've seen the proliferation of al Qaeda groups; training 
for anti-kidnapping and anti-extortion in Colombia, whereas, of 
2005, ATA had trained 143 Colombia national police officers and 
176 Colombia military personnel in crisis response techniques; 
and training programs for law enforcement personnel in 
Pakistan, Indonesia, Philippines, Kenya and other countries.
    Although the ATA Program is functioning well, it could be 
improved. The Government Accountability Office [GAO], recently 
reported that although the Department of State has coordinated 
antiterrorism efforts among other agencies as well, 
establishing goals for the ATA Program had fallen short. 
Building an individual Nation's capacity to fight terrorism and 
train their law enforcement personnel has never been so 
critical. A cookie cutter approach to program development is 
not the answer. Streamlined national objectives and means to 
measure success and sustainability are simply good management.
    We look forward to hearing about how the Department of 
State is addressing these concerns and improving upon the ATA 
Program.
    And, finally, Mr. Chairman, I welcome all our witnesses 
here today, thank them for their important work, both in 
implementing the ATA Program and in conducting critical reviews 
to make sure it's operating at maximum effectiveness.
    And I thank you again for holding this important hearing.
    And I am a little awkward in saying that I am going to 
leave for a very brief time because we have sheiks from Iraq 
who are here, and I want to show them proper respect, but I'm 
going to hustle right back. Thank you.
    Mr. Tierney. Thank you Mr. Shays.
    So now the subcommittee will receive testimony from the 
witnesses that are before us, and I want to begin by 
introducing them. Mr. Charles Johnson, Jr., is the Director of 
the International Affairs and Trade Team at the U.S. Government 
Accountability Office. Mr. Johnson has had an extremely 
distinguished 27-year career with GAO, having won numerous 
awards, including a special commendation award for outstanding 
performance, leadership, management and high congressional 
client satisfaction.
    So the committee thanks you and everyone associated with 
this project in particular for the extensive efforts that 
you've made in this job.
    We also have with us the two point people at the State 
Department for the Antiterrorism Assistance Program.
    Ms. Gina Abercrombie-Winstanley, Deputy Coordinator of 
Programs and Policy for the Office of the Coordinator for 
Counterterrorism, you have an excellent selection of ties this 
morning. It shows great character and taste.
    Ms. Abercrombie-Winstanley is a career member of the Senior 
Foreign Service having joined the Department in 1985. I should 
also note that she has previously served as a fellow in 
Congress but in the other body, but that's OK.
    Ms. Linda Tibbetts, Acting Director for the Bureau of 
Diplomatic Security, Office of Antiterrorism Assistance. Ms. 
Tibbetts has served among other posts as a diplomatic senior 
special agent and a senior intelligence agent within the State 
Department. It's the policy of this subcommittee to swear you 
in before you testify, so I ask you to please stand and raise 
your right hands.
    [Witnesses sworn.]
    Mr. Tierney. Will the record please reflect that all 
parties answered in the affirmative.
    I do note that your full written statement will be put in 
the hearing record so that if you choose to just make comments 
as opposed to reading from that statement, that's perfectly 
acceptable and oftentimes welcome if it adds new information. 
We ask you to keep your oral statements to 5 minutes if you 
can. We'll give you a little bit of leeway on that, but we 
would like to keep it in there so we get some good questions 
and answers and probably cover as much ground as we possibly 
can.
    We'll start with Mr. Johnson, and then we'll move on from 
his side, left to right as I face you.
    So, Mr. Johnson, I would welcome your remarks.

STATEMENTS OF CHARLES M. JOHNSON, JR., DIRECTOR, INTERNATIONAL 
 AFFAIRS AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; AND 
  GINA ABERCROMBIE-WINSTANLEY, DEPUTY COORDINATOR, PROGRAMS, 
 POLICY, BUDGET AND OPERATIONS, OFFICE OF THE COORDINATOR FOR 
    COUNTERTERRORISM, ACCOMPANIED BY LYNDA TIBBETTS, ACTING 
    DIRECTOR, OFFICE OF ANTITERRORISM ASSISTANCE, BUREAU OF 
                      DIPLOMATIC SECURITY

              STATEMENT OF CHARLES M. JOHNSON, JR.

    Mr. Johnson. Thank you Mr. Chairman, members of the 
subcommittee. I am pleased to be here today to discuss the 
Department of State's Antiterrorism Assistance Program.
    First, I will address the adequacy of State's guidance for 
determining foreign country recipients and types of assistance 
to provide. Second, I will describe how State coordinates ATA 
with our U.S. counterterrorism programs. And, finally, I will 
address the extent to which State establishes clear ATA goals 
and measures program outcomes.
    My statement today is based on our February 2008 report 
which focused on ATA's program efforts from fiscal year 2001 to 
2007. Before I discuss findings, I would like to note that the 
ATA Program is a key mechanism in State's efforts to assist 
foreign countries in deterring and countering terrorism. 
Funding for the ATA Program has gone from $38 million in fiscal 
year 2001 to, as you've noted earlier, just over $170 million 
in fiscal year 2007. Much of the program's assistance is for 
training provided in foreign countries and for equipment to 
enhance foreign government efforts to combat terrorism. Within 
the State Department, the Office of the Coordinator for 
Counterterrorism, which I will refer to as S/CT, and the Bureau 
of Diplomatic Security, Office of Antiterrorism Assistance, DS/
T/ATA, oversee and manage the program.
    With respect to the adequacy of guidance, our work revealed 
that S/CT had provided minimal guidance to help DS/T/ATA 
determine priorities and assure the assistance provided 
supports broader U.S. policy goals. Although there have been 
recent efforts to hold quarterly meetings between the two 
units, the guidance S/CT provided to DS/T/ATA was primarily a 
tiered list of priority countries. However, this list at the 
time of our review did not provide guidance on country-specific 
program goals, objectives or counterterrorism-related training 
priorities that could be used to help ensure consistency with 
the U.S. policy objectives.
    In addition, we found that other factors may influence 
which countries receive program assistance, such as an increase 
in the U.S. Government's diplomatic or political interests in 
the country. For example, in fiscal year 2007, we found that 10 
countries on the ATA tier list did not receive ATA assistance, 
while 13 countries not on the tier list received $3.2 million 
in assistance. According to State guidance, assessments ought 
to guide ATA resource decisions and form the basis of country-
specific assistance plans. However we found that S/CT and DS/T/
ATA did not consistently or systematically use country-specific 
needs assessments and program reviews to plan the types of 
assistance to provide partner nations.
    Concerning coordination, S/CT had established mechanisms to 
coordinate ATA with other U.S. international counterterrorism 
efforts. S/CT helped bi-weekly interagency meetings with the 
Departments of Defense, Justice, Treasury and other agencies, 
as well as Ambassador-level regional strategic meetings to help 
coordinate international counterterrorism assistance and to 
avoid duplication of efforts. In four countries we visited 
during our review, we did not find any significant duplication 
or overlap among the various U.S. international 
counterterrorism efforts.
    Concerning efforts to assess outcomes, State had made 
progress in establishing goals in intended outcomes for ATA but 
did not systematically affect the outcomes of program 
assistance. State planning documents state that enabling 
partner nations to achieve advanced and sustainable 
counterterrorism capabilities is a key program outcome. 
However, S/CT and DS/T/ATA had not set clear measures of 
sustainability and had not integrated sustainability into 
program planning. As a result, State cannot assess the extent 
to which the ATA Program is meeting its longer-term objectives.
    Another area of concern related to the accuracy of State's 
annual ATA reports that were provided to Congress. We found 
that the reports contained inaccuracies and lacked 
comprehensive information in program results that would be 
useful in evaluating effectiveness. For example, the most 
recent ATA annual report submitted to Congress contained 
inaccurate data on the number of students trained and courses 
offered. There's more extensive information in the statement 
that's included in the record.
    In conclusion, as I noted earlier, ATA plays a central role 
in U.S. efforts to assist foreign partners in deterring and 
countering terrorism abroad. However, minimal guidance for 
determining recipients and type of assistance to provide; 
inconsistent use of country-specific needs assessments and 
program reviews; and the lack of systematic assessments and 
reporting outcomes have made it more difficult to determine the 
extent to which ATA is focused on addressing partnering 
nations' greatest counterterrorism needs and broader U.S. 
counterterrorism policies.
    To address these findings, we recommended in our February 
2008 report that the Secretary of State revisit and revise its 
internal guidance to ensure clear roles and responsibilities 
for DS/T/ATA and S/CT and that there is clear guidance for 
determining which countries should receive ATA assistance. We 
also recommended that the Secretary of State review how needs 
assessments are used to determine country-specific assistance 
plans and establish clear measures of sustainability and 
program outcomes.
    Mr. Chairman and members of the subcommittee, this 
concludes my prepared statement. I'll be happy to answer any 
questions at this time.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T1568.003
    
    [GRAPHIC] [TIFF OMITTED] T1568.004
    
    [GRAPHIC] [TIFF OMITTED] T1568.005
    
    [GRAPHIC] [TIFF OMITTED] T1568.006
    
    [GRAPHIC] [TIFF OMITTED] T1568.007
    
    [GRAPHIC] [TIFF OMITTED] T1568.008
    
    [GRAPHIC] [TIFF OMITTED] T1568.009
    
    [GRAPHIC] [TIFF OMITTED] T1568.010
    
    [GRAPHIC] [TIFF OMITTED] T1568.011
    
    [GRAPHIC] [TIFF OMITTED] T1568.012
    
    [GRAPHIC] [TIFF OMITTED] T1568.013
    
    [GRAPHIC] [TIFF OMITTED] T1568.014
    
    [GRAPHIC] [TIFF OMITTED] T1568.015
    
    [GRAPHIC] [TIFF OMITTED] T1568.016
    
    [GRAPHIC] [TIFF OMITTED] T1568.017
    
    [GRAPHIC] [TIFF OMITTED] T1568.018
    
    [GRAPHIC] [TIFF OMITTED] T1568.019
    
    [GRAPHIC] [TIFF OMITTED] T1568.020
    
    [GRAPHIC] [TIFF OMITTED] T1568.021
    
    [GRAPHIC] [TIFF OMITTED] T1568.022
    
    [GRAPHIC] [TIFF OMITTED] T1568.023
    
    [GRAPHIC] [TIFF OMITTED] T1568.024
    
    [GRAPHIC] [TIFF OMITTED] T1568.025
    
    [GRAPHIC] [TIFF OMITTED] T1568.026
    
    [GRAPHIC] [TIFF OMITTED] T1568.027
    
    [GRAPHIC] [TIFF OMITTED] T1568.028
    
    Mr. Tierney. Thank you, Mr. Johnson. We appreciate that.
    Ms. Abercrombie-Winstanley.

            STATEMENT OF GINA ABERCROMBIE-WINSTANLEY

    Ms. Abercrombie-Winstanley. Thank you. First of all, I 
return the compliment on the tie.
    Mr. Tierney. Thank you.
    Ms. Abercrombie-Winstanley. Chairman Tierney, distinguished 
members of the subcommittee, thank you for the opportunity to 
testify today about the Antiterrorism Assistance Program. My 
colleague, Ms. Linda Tibbetts, from the Bureau of Diplomatic 
Security will help me with answering questions, but I will 
deliver the statement for the record.
    I would like to begin by saying that we in the Department 
of State are proud of what we have achieved with the ATA 
Program over the past several years. Our assistance program 
with its concrete successes is one of the U.S. Government's 
strongest tools on the war on terror. It's a living program and 
therefore a work in progress, but we have many good news 
stories to tell.
    For example, in Colombia ATA has conducted several years of 
antiterrorism instruction at a cutting-edge training facility 
in Sibate. This has helped Colombia's anti-kidnapping units, 
known as the GAULAs, reduce kidnappings by 83 percent since 
2002. Not one of the ATA-trained GAULAs has lost a single 
hostage during rescue operations since the beginning of the 
program. Furthermore, Colombia is taking over the entire 
management of the program. The transition is expected to be 
completed next year with Colombia funding the entire tactical 
portion of the training.
    In 2007, Colombia signed an agreement with Paraguay to 
provide anti-kidnapping assistance. Colombia has also provided 
mentoring to Argentina, Chile and Ecuador. In addition, Mexico 
has had discussions with Colombia about the increased 
kidnapping threat in that country. The government of Colombia 
uses the ATA-developed training facilities to train anti-
kidnapping units in other Latin American countries. We in S/CT 
are confident of the sustainability of this program.
    In Afghanistan, ATA programs work to organize, train, equip 
and mentor protective detail in supporting tactical elements of 
the now regionally renowned Presidential Protective Service. 
The PPS is responsible for the safety of President Karzai. 
Thanks to its high degree of professionalism, the PPS began 
escorting President Karzai on overseas state visits without 
American mentor support.
    In Indonesia, as some of you have witnessed firsthand, 
after the first Bali bombing in 2002, the State Department 
designed, developed and implemented an ATA Program for the 
Indonesian National Police. The program is predicated on 
delivering contemporary training courses, equipment, 
development and the institutionalization of tactical response 
units. Our commitment to training trainers to ensure 
sustainability is clear. ATA trainees have been instrumental in 
the apprehension or elimination of more than 425 terrorists in 
Sulawesi and Java, including top Jemaah Islamiya leaders.
    In Pakistan, the most notable successes of the ATA Program 
are the development and support of a Pakistan Federal law 
enforcement counterterrorism unit, the Special Investigative 
Group [SIG]. The SIG operates under the Ministry of Interior's 
Federal Investigative Agency. It has been instrumental in 
providing crucial evidence that has led to the successful 
prosecution of Pakistani and other foreign terror suspects in 
U.S. courts.
    But every successful operation can be improved. The State 
Department reviews the recommendations made in the GAO report 
as an opportunity to further strengthen the ATA Program. In 
particular, we do agree that there is room for improvement in 
the areas of oversight and sustainability.
    In terms of oversight, we strongly believe that the 
increasing regionalization of the ATA Program will address many 
of the GAO's concerns. The Regional Strategic Initiative will 
further prioritize which countries and regions receive ATA's 
funding. During meetings with our Ambassadors and interagency 
representatives in each of the eight RSI groupings, S/CT 
receives requests for delivery of antiterrorism assistance as 
part of the effort to pool resources, devise collaborative 
strategies and policy recommendations. This will help us 
address a particular terrorism threat in each region. S/CT and 
DS/T/ATA participate in the subsequent Technical Assistance 
Sub-Group meetings to ensure proper follow-through.
    S/CT recently redesigned the tier list used to prioritize 
countries. By using our Regional Security Office's responses to 
15 questions, we covered three specific categories: in-country 
threat; U.S. interests; and foreign partner capability--
capacity.
    While a priority list is necessary, flexibility is crucial 
to responding to actual needs and opportunities on the ground. 
We'll ensure that we can redirect funding for antiterrorism 
assistance to respond to national security and congressional 
concerns. To help us match priorities with opportunities, we're 
in the process of filling a new position in S/CT for a 
strategic planner, one of whose responsibilities will be to 
participate in the assessment teams.
    During the past year, the Office of Antiterrorism 
Assistance appointed a coordinator for professional capacity 
development. This officer is developing a methodology to 
quantify levels of achievement by foreign governments in the 
area of fighting terrorism. These can be applied 
internationally and against varying capacities of each country. 
In order to strengthen the relationship between the initial 
needs assessment that serves as a basis for starting assistance 
and the metrics being developed to assess results and 
sustainability, the Office of Antiterrorism Assistance recently 
realigned this position, and it is now located in the 
Assessment, Review and Evaluation Unit.
    This coordinator will track the progress of individual 
countries according to the 25 established critical capabilities 
of the needs assessment process. You will find examples of 
these capabilities in the statement provided for the record.
    Chairman Tierney and distinguished members of the 
subcommittee, I thank you for this opportunity to talk to you 
today about antiterrorism assistance. We welcome your questions 
and comments.
    [The prepared statement of Ms. Abercrombie-Winstanley 
follows:]

[GRAPHIC] [TIFF OMITTED] T1568.029

[GRAPHIC] [TIFF OMITTED] T1568.030

[GRAPHIC] [TIFF OMITTED] T1568.031

[GRAPHIC] [TIFF OMITTED] T1568.032

    Mr. Tierney. Thank you very much.
    And I understand Ms. Tibbetts is not going to make an 
opening statement but will be available for questioning, and I 
appreciate that.
    First of all, I want to thank everybody for the tone of 
this hearing as well. I do see this as a constructive exercise 
that certain issues have been raised, and from what I hear, a 
number of them may have been received either previously or in 
the interim here. So I would like to sort of approach this as a 
discussion if that's acceptable. I don't see this as banging 
back and forth on that at all.
    But in the GAO report, you start off with the first report 
about the finding that the S/CT provides minimal guidance to 
help prioritize program recipients. Does that still pertain, or 
Ms. Abercrombie-Winstanley, do you think that your Department 
has addressed that concern?
    Ms. Abercrombie-Winstanley. I believe we have addressed it 
in large measure. We have increased the number of meetings that 
we have with ATA. I've certainly been in weekly meetings since 
I have started this job a few weeks ago, so I know that we have 
a very close collaborative working relationship. We've also 
fallen under our new F process, which is our foreign assistance 
overall, which leads to a series of roundtables to ensure that 
there is sufficient oversight from S/CT and that the programs 
are married with foreign assistance writ large from the 
Department of State.
    Mr. Tierney. Mr. Johnson, was that what you had in mind, 
your people when they wrote this report, that type of a 
solution to this, or was there something broader that you 
thought might be helpful?
    Mr. Johnson. Well, we were hoping for more clear direction 
and guidance from the S/CT to the DS/T/ATA, as their own policy 
memo lays out. In essence, the S/CT is to provide more than 
just a tier list but also to identify country needs--or help 
DS/T/ATA identify country needs in terms of making those trips 
or leading those trips to do some assessments in-country. So 
just beyond providing a list, we were hoping to see a lot more 
done from that standpoint.
    Mr. Tierney. So more than just meetings and having a list, 
you really wanted them to get out there in the field to do some 
investigatory work or something?
    Mr. Johnson. Or at least to work collaboratively with DS/T/
ATA in doing that.
    There was mention of the F process. There were concerns 
during our review that the F process actually impacted the 
ability of the ATA Program to carry out some of its objectives.
    Mr. Tierney. And how is that?
    Mr. Johnson. I guess the F process and the State Department 
can explain more how that works. We have an ongoing review 
looking at that at GAO, but the F process in essence may not be 
consistent in terms of what the tier list of priorities call 
for for the specific ATA countries or for countries that are on 
that list. I pointed out earlier there are some countries that 
were not on the list that actually received ATA assistance.
    Mr. Tierney. Thirteen of them. That struck me when you were 
talking; 13 were not on the list that got a significant amount 
of assistance, and 10 that were on the list that got ignored.
    So Ms. Abercrombie-Winstanley, how would that happen, and 
what was the reason behind that?
    Ms. Abercrombie-Winstanley. I cannot speak specifically to 
all of the 13 countries, and Ms. Tibbetts may be able to answer 
that specifically. But obviously, flexibility is one of the 
things that we do have to reserve the right----
    Mr. Tierney. Could I--you don't mind if I interject with 
you about that. So you have 13 countries that are not on the 
list. That's a lot of flexibility. That's not just a little 
flexibility. I mean, that's really I think a pretty bold move. 
And then 10 people that are on the list prioritized fall right 
off.
    Ms. Tibbetts, can you help us out why those decisions were 
made?
    Ms. Tibbetts. Sir, if I may, I have been told that, not all 
13, but at least 5 or 6 of those 13 were due to an ILEA, 
International Law Enforcement Academy, course, which ILEA 
courses--there's ILEA training academies in Budapest, Bangkok, 
and there's for 4 or 5 of them worldwide. Those countries were 
invited to those training courses. Those are multi-national 
training courses that because they're regionally located 
involve a number of different countries. And some of those 
that--ATA provides training at these academies. And some of 
those countries that were present at these ILEA courses were 
not on the tier list.
    Mr. Tierney. So that triggered a finding that they got some 
assistance from there, but it wasn't an ongoing program; it was 
a one-off sort of situation?
    Ms. Tibbetts. Right, exactly.
    Like I say, that doesn't account for all 13, but I know at 
least I think half of them were attributed to the ILEA program. 
That was visa and passport type of training that was given at 
the academy that the Regional Security Officers believed these 
different countries would benefit from the training.
    Mr. Tierney. What about the 10 that didn't get it that were 
on the list of priority? I mean, did somebody make a conscious 
decision that we just ran out of resources or we can't come up 
with enough for them?
    Ms. Tibbetts. I believe that was resource dominated. It was 
the lack of funding.
    Mr. Tierney. Mr. Johnson, did you take any look at how much 
money was spent on the 13 who weren't on the list versus what 
the needs of the 10 that fell off without anything? How does 
that line up?
    Mr. Johnson. As I noted earlier, the amount of resources 
provided to--for the ATA Program has increased over the years, 
pretty much going up three times or more than it has been.
    Again, we're not sure how the F process has actually 
impacted the program. But we did learn during the year that the 
F process may have actually slowed down actual implementation 
of the ATA Program itself in terms of there were concerns about 
funding even being available to continue with the program at 
some point in time during the year during the time of our 
review.
    Mr. Tierney. Is that accurate, what happened, Ms. 
Abercrombie-Winstanley?
    Ms. Abercrombie-Winstanley. Certainly the need to follow 
the process, because it's recently been implemented, it has 
taken a while for all of us in the Department of State to make 
sure that we follow through with everything that needs to be 
done under it. And it has slowed the dispensation----
    Mr. Tierney. Tell me what the process is and why we would 
allow some bureaucratic sort of process to slow down an entire 
program that generally was doing a good job in a lot of areas? 
Why we sort of backtracked on that? What is this F process, and 
what's the importance?
    Ms. Abercrombie-Winstanley. The F process--and you should 
probably have someone from F to come up and speak very 
specifically to it. I, as someone who has to follow it, don't 
have the overall explanation for how all of it works, just how 
it impacts us. But the F process is supposed to rationalize our 
assistance overall so that we don't have duplication, so that 
we know what other bureaus within the Department are doing. And 
as you know, in addition to S/CT, there are bureaus like INL 
that do assistance to do police training for instance. This is 
helping us to ensure that what we're doing marries up properly. 
But that does mean that additional information has to be given, 
additional coordination, and that may delay some of the time.
    Mr. Tierney. Well, Mr. Johnson's crew found out that you 
didn't see an awful lot of overlap, you thought that part was 
fairly well run, right?
    Mr. Johnson. That's correct, we didn't see much overlap.
    Mr. Tierney. So now we're putting in a program to solve a 
problem that may not have existed, and it slowed everything 
down.
    Ms. Abercrombie-Winstanley. But it's not about S/CT alone. 
Again, the F process is for the entire Department.
    Mr. Tierney. So the entire Department has messed you up 
basically?
    Ms. Abercrombie-Winstanley. I wouldn't say that.
    Mr. Tierney. I'll say it. I mean, somebody put in a level 
of bureaucracy which apparently has just turned things upside 
down on your operation, which was running along fairly smoothly 
without any overlap, and may have caused you to lose some focus 
on prioritizing countries in need versus countries not 
necessarily on that list; is that accurate?
    Ms. Abercrombie-Winstanley. I cannot say that's accurate. I 
have been in place for about 3 weeks. If you ask me 6 months 
from now, I may have additional information----
    Mr. Tierney. Ms. Tibbetts, you've been there longer. What 
do you think?
    Ms. Tibbetts. I believe that--I spoke with a representative 
of the F Bureau at the last Regional Strategic Initiative 
Conference which Ambassador Daley hosted in Addis Ababa a 
couple of weeks ago. I was very happy to have the chance to 
speak with him one on one. I think they're starting to 
understand how, from an operational perspective, ATA requires 
the constant supply of our funding. And F has had issues with 
giving us all of our money within the last 6 weeks of the 
fiscal year, and then we have to postpone training. And it has 
been very disruptive to our schedule. I think we received our 
money in earlier portions this year, so I think it's finally 
started to get through to them that in order for us to continue 
our training uninterrupted, we require the resources to do so.
    Mr. Tierney. Why were they holding it up? Were they waiting 
for you to reach certain benchmarks or write certain reports? 
What was the delay?
    Ms. Tibbetts. Once again, I'm with Gina. I can't tell you 
the complete rationale.
    Mr. Tierney. Well, you can feel the effect, you can tell me 
the effect. You asked for money, and you wouldn't get it. What 
reasoning would they give you that you couldn't get it?
    Ms. Tibbetts. We really felt the effects. I believe they 
didn't want to start picking and choosing offices that were 
getting it at certain parts of the calendar year. They wanted 
to do all of their foreign assistance funding at one time. We 
tried to explain our pain, and we ended up postponing some of 
our courses because of it. That's why, if you look at our 
spending in our budget and our number of training courses that 
we conducted in 2006, it went up and then it went down in 2007 
because of having postponements that we were having caused by 
the F process.
    Mr. Tierney. What are we going to do about this 
prioritization issue? It seems to me we ought to know what 
countries have more particular needs or whatever. I think it's 
a legitimate point raised by GAO. So what are we going to do, 
irrespective of the F program, which may interrupt it a little 
bit here to make sure we're targeting those countries, 
assessing them properly, identifying their needs and then 
putting our money where we're going to get the best return on 
it?
    Ms. Abercrombie-Winstanley. I think the process, certainly 
for assessments, we've made changes in the last year, as I said 
in my remarks. I'm having a strategic planner who will be a 
part of the assessment team so S/CT will have someone hands-on. 
From time to time, on the larger programs, I may indeed be part 
of an assessment team myself to see what it is on the ground.
    What we do maintain at the Department of State is the 
flexibility and, when something is truly urgent, the ability to 
put money and to put a program in place. Again, from my prior 
experience as director for Lebanon desk, I know that we were 
able to move money to that country in an expeditious fashion. 
So I know that, when there are emergencies, when there are real 
priorities, we can move a little bit faster with the F process 
in place.
    I believe in the last year the F process has done some 
improvements. Linda mentioned that money is coming out of it 
faster. As we get used to the changes and are able to pivot and 
meet what is required, I think things will move in a smoother 
fashion. But this is something that we're obviously going to be 
speaking with our colleagues about and pressing that we need 
money to flow for these programs because of the importance that 
we attach to them.
    Ms. Tibbetts. Sir, if I may add one more thing, as long as 
we're talking about F. For instance, we received $15 million to 
assist the country of Jordan, and it was 2007-2008, essentially 
2-year money, but received it at the end of the fiscal year 
2007, so essentially it's 1-year money. And we're hoping that 
we have the mechanisms in place to be able to spend all of it. 
We may have to come back and ask for an extension on it just 
because we can't get it appropriated through the system; 
because really, even though they said it was 2-year money, we 
didn't get it until it was 1. So it's issues like that cause us 
to operationally and logistically have difficulties sometimes 
implementing our program.
    Mr. Tierney. Let me get Mr. Johnson's view on that as well, 
but I've had my 10 minutes. Mr. Shays.
    Mr. Shays. I pass.
    Mr. Tierney. All right. Mr. Duncan, you're recognized for 
10 minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    I noticed over the years that there's competition within 
government, just like there's competition within business. But 
I have to tell you that I've never, I don't think I've seen any 
other department or agency or program in the entire Federal 
Government get the kind of increase that this program has. We 
have a memo saying that there's been a 600 percent increase in 
funding since 2000 up to fiscal year 2007. And inflation since 
that time has been about 30 percent, so it's pretty amazing.
    Just a few weeks after 9/11, the Wall Street Journal had an 
editorial, and they noticed that year that the word 
``security'' had been attached to the Farm Bill. They changed 
the name to the Farm Security Act. And they noticed that every 
department and agency was submitting increased requests using 
the words ``security'' and ``terrorism.'' And they said in that 
editorial that they would suggest that, from now on, any bill 
that has the words ``security'' or ``terrorism'' in it should 
get twice the weight and four times the scrutiny or four times 
the weight and twice the scrutiny, I don't remember which, lest 
all sorts of bad legislation be enacted in the name of fighting 
terrorism.
    And just 2 weeks ago in the Hill newspaper, a professor 
from the University of Pennsylvania had an editorial saying 
that the words ``security'' and ``terrorism'' have become 
funding bonanzas for all sorts of departments and agencies. I'm 
wondering, the appropriation for fiscal year 2007, it says in 
our memo, was $175 million.
    What is the request, Mr. Johnson, for this year, this 
fiscal year? Are they requesting another increase?
    Mr. Johnson. Well, I think the request that we have on 
record for fiscal year 2008 is $128 million.
    Mr. Duncan. Well, then our memo is incorrect when it says 
there was an appropriation for $175 million?
    Mr. Johnson. For fiscal year 2009, I believe the request is 
about $141 million.
    Mr. Duncan. All right.
    So instead of a 600 percent increase, then, you're talking 
about a 500 percent increase, I guess.
    How much of that is done through private contractors?
    Mr. Johnson. Well, the bulk of the delivery of the services 
are done in the foreign countries through the use of 
contractors.
    Mr. Duncan. Can you tell me who are the top five private 
contractors? Who have the largest--what contractors receive the 
largest contracts?
    Mr. Johnson. I defer to the State Department on that.
    Ms. Tibbetts. As far as personnel, sir, we use two separate 
contracting services to staff our personnel. Caseman and 
Alutiiq small business corporation provide our personnel to 
provide the services.
    Mr. Duncan. Those are two contracting services?
    Ms. Tibbetts. Two contracting companies which employ our 
personnel, correct.
    Mr. Duncan. So you've given contracts to those companies to 
hire--with the job of hiring other contractors?
    Ms. Tibbetts. Our contract employees go through OPM, and 
they use scheduled government GSA approved contractors who 
provide these services through OPM.
    Mr. Duncan. All right. Thank you very much.
    Mr. Tierney. Mr. Platts, you're recognized for 10 minutes.
    Mr. Platts. Thank you, Mr. Chairman.
    Ms. Tibbetts, a followup on Mr. Duncan's question. If I 
understand correctly, the request funding for this year is 
about $128 million, I think was the number stated, a drop of 
about $50 million. Can you explain the rationale, the basis of 
that decrease?
    Ms. Tibbetts. In 2007, sir, our base budget I believe was 
about $122 million. Subsequent to that, we received $50 million 
in supplemental funding, which was targeted for specific 
countries: Jordan, the Palestinian Authority, Lebanon, Liberia. 
And that made up the bulk of the extra $50 million.
    Mr. Platts. So you're anticipating not having the need to 
continue the programs that were funded through the 
supplemental, or is there an expectation that we're going to 
have another supplemental in order to fill what will now be a 
significant gap?
    Ms. Tibbetts. That's a good question. And as far as the 
budgetary aspects of my program, I defer to my colleagues in S/
CT. However, the programs are ongoing. And I know that, for 
instance, Afghanistan, Liberia, some of our larger programs, we 
do end up with supplemental funding, which I don't want to say 
we plan on it, but it certainly helps us continue our 
operations.
    Mr. Platts. Because I would assume that those programs that 
are going on, Jordan, Liberia, there's not a belief that that 1 
year bump is going to----
    Ms. Tibbetts. Absolutely not sir. And that's kind of what I 
was alluding to before. For instance, for our Jordan, which is 
one of our largest what we call in-country programs, where we 
have staff on the ground trying to build the capacity of the 
Jordanian security services, and we have $15 million, for 
instance, and the priority of the Jordanians is to build this 
huge command and control center so that they can coordinate all 
the efforts of their security services. We have the $15 
million. We got it late, and now we're trying to appropriate it 
in time before the money kind of runs out. So that's one of our 
operational challenges that we face on that. We assume we're 
getting, I'm not sure of the numbers for more funding for 
Jordan for 2009, but obviously it doesn't run out.
    Gina, probably maybe you know.
    Ms. Abercrombie-Winstanley. We have a supplemental request 
for 2008 of $5 million, so it's smaller than the $50 million 
for the previous year. Specifically for Jordan--yeah, some of 
it is for Jordan.
    Mr. Platts. Let me turn to a different issue, and it kind 
of relates to what you're doing in Jordan, but it's the broader 
issue of coordination.
    And, Mr. Johnson, if you want to comment on the oversight 
that was done by GAO, as well as our other panelists, on the 
issue of coordination. And I apologize if this was asked 
earlier in coming in late. As far as coordination between 
State, Treasury, the various departments and agencies that are 
involved in counterterrorism, and specifically on the issue of 
counterterrorism efforts relating to the funding, to the 
movement of funds. I know, in Jordan, they're standing up now 
the unit to try to prevent money being laundered through 
Jordanian banks or the Jordanian Central Bank as in other 
countries. What kind of coordination is going on specifically 
between State and how you're targeting the funds you have; and 
Treasury, that has taken the lead on trying to stop the flow of 
money which allows terrorism to be underwritten?
    Ms. Abercrombie-Winstanley. For counterterrorism financing, 
we have a working group, the CTFWG, the Counter-Terrorist 
Financing Working Group. And it meets every other week, along 
with the State Department, S/CT and INL co-chair it, so I'm one 
of the chairs. And about 15 to 20 different agencies 
participate in this meeting every other week.
    Mr. Platts. Could you speak more into the mic? I'm having 
trouble hearing, I'm sorry.
    Ms. Abercrombie-Winstanley. Sorry. This is a meeting that I 
chair every other week on counterterrorism financing. And about 
15 to 20 different agencies attend this meeting every other 
week.
    I have to say, in my 23 years of government service, it's 
one of the best meetings I've ever attended or chaired. Insofar 
as, between Treasury and FBI and DHS, State Department, the 
ability and the willingness to exchange information and 
coordinate what we're doing, what training efforts we've got 
under way, is extraordinary. This is a wonderful coordination 
mechanism and it works very well.
    Mr. Platts. As a result of that coordination, and that's 
certainly I think the assessment I've come to believe that we 
have kind of learned our lessons of the stovepipe mentality and 
are now doing better coordinating, as a result of that 
coordination, does it translate back to State say in how to 
allocate the Antiterrorism Assistance Programs in setting the 
priorities for where the money goes, so that if through that 
coordination, you identify, hey, this is really a priority in 
the counterterrorism financing, does that then translate to 
State in how in a specific country, hey, they're standing up 
their counterterrorism finance unit, so this would be a good 
recipient to get the funds, the ATA funds?
    Ms. Abercrombie-Winstanley. I believe it does. I believe it 
does. Again, I've chaired two of the meetings thus far. And 
discussion of what training programs are out there, who needs 
money. We've talked to them about our F process to help talk 
them through the need for getting requests for funding that may 
come from the State Department early. And I believe it does, 
yeah.
    Mr. Platts. I'm not sure if Congressman Lynch was here 
earlier, but he's been great as one of the co-chairs on the 
counterterrorism financing efforts, and that coordination, 
because, as we know, if we can stop the flow of the funds, 
we're going to have great success in stopping the activity.
    So thank each of you for your work, your service to our 
citizens.
    And Mr. Chairman thank you.
    Mr. Tierney. Thank you Mr. Platts.
    Mr. Shays, you're recognized for 10 minutes.
    Mr. Shays. Thank you.
    I thank you again, Mr. Chairman, for conducting this 
hearing.
    I thank GAO for writing its report.
    And I want to acknowledge to Ms. Abercrombie-Winstanley, I 
note that you received a recognition for acts of courage during 
an attack on the U.S. Consulate General, Jeddah, Saudi Arabia, 
and I thank you for whatever your efforts were in that regard.
    I'm going to ask you to bring the mic closer to you. You 
have a rather soft voice, and I'm a little sleepy.
    I think you have a great job. I mean a great opportunity. 
And I think both of you do.
    And but I am fascinated--fascinated is a strong word--I am 
curious as to why the GAO is telling us that the ATA Program is 
required to submit to Congress each year a report on the 
antiterrorism efforts of the entire Federal Government but have 
not done so since 1996. That goes back to another 
administration. And it hasn't been done since.
    So I want to know why that's the case? Was it something you 
didn't realize you needed to do, or is it something you just 
decided, they didn't do it, so we won't do it?
    Ms. Abercrombie-Winstanley. It might have been a 
combination of the two of those things. Obviously, I've been 
asking about that since I came on board.
    Mr. Shays. And when did you come on board?
    Ms. Abercrombie-Winstanley. I think a month ago today, a 
month ago today. But having come from NEA, I've dealt with many 
of the issues personally and professionally that we cover in S/
CT, so this is a job that is very personal to me.
    On the report, I believe we did not realize we needed to do 
it and/or people thought we hadn't done it and weren't going to 
do it. It is in the clearance process now, so we will be 
submitting it very shortly.
    Mr. Shays. Is it a doable effort?
    Ms. Abercrombie-Winstanley. It is a challenging effort, but 
I believe we've got a new tool to help. And again, since I've 
been in place, I've been in contact with NCTC. And one of the 
things that they are doing is a budget call, I think is the 
phrase that they use.
    But what they're asking is, from every U.S. Government 
agency, the budget for all of their counterterrorism programs. 
And by getting the budget, which is good to know what people 
are spending on it, we will also have available to us what 
everyone is doing across the board. I believe this is the first 
time it has been done. NCTC is doing it. And we will be able to 
submit a better, clearer report based on that information.
    Mr. Shays. Well, you don't mean a better report. There's 
been no report.
    Ms. Abercrombie-Winstanley. I beg your pardon?
    Mr. Shays. You say ``a better report?''
    Ms. Abercrombie-Winstanley. A better, yes. What we are 
going to submit this year will certainly be as comprehensive as 
we've been able to find out.
    Mr. Shays. Basically what you all have been doing is 
reporting on what ATA has done?
    Ms. Abercrombie-Winstanley. Exactly.
    Mr. Shays. But this is--I don't want to--I want to pursue 
this a little bit better because you have the advantage 
fortunately of being able to start fresh and not to have to 
make any excuses for the past.
    But I, one, need to know if this is an important effort; 
two, if you have the capability to do it, because clearly 
you're going to have to assign a number of people to it. 
Otherwise it's going to be a meaningless report. So, one, is it 
your recommendation that you should be required to do this; 
and, two, do you have the resources to do it? And will it be 
done, not better than before, because it wasn't done--I don't 
want to link the ATA report with this. This is a separate 
report.
    Ms. Abercrombie-Winstanley. Fair enough, fair enough, yes.
    Mr. Shays. So tell me how you respond to my questions.
    Ms. Abercrombie-Winstanley. A twofold response.
    I believe in our written response, we supported you giving 
consideration to GAO's recommendation that we not have to do 
the report. So that's our written response, and obviously, I 
stand by it.
    That said, since it hasn't been done yet----
    Mr. Shays. You mean, since it's still on the books, you had 
to do it?
    Ms. Abercrombie-Winstanley. Yes, since it's still on the 
books, we are required to do it. We have pulled together as 
best we can among other agencies what it is they're doing, and 
we will be submitting a report.
    That said, I believe with the information that NCTC 
believes they will have in hand in the fall, which is, as I 
said, the budget call from everybody what they're doing, we may 
be able to provide a report that has some use. At least you'll 
be able to look and see what, across the board, everyone is 
doing.
    Mr. Shays. Let me get to GAO.
    Help me out here. Why did you make the recommendation they 
shouldn't do it? Is someone else doing it.
    Mr. Johnson. I want to clarify for the record we did not 
recommend that it not be done. We actually recommended that the 
State Department comply with the congressional mandate to 
report to Congress. We did pose a matter for congressional 
consideration for Congress----
    Mr. Shays. You did what?
    Mr. Johnson. We posed the matter for Congress to revisit, 
meaning revisit whether or not they want the State Department 
to comply with these.
    Mr. Shays. So you're kind of neutral on it?
    Mr. Johnson. Well, it's not our position given that there 
is a law. There's a mandate that requires the State Department 
to comply.
    Mr. Shays. So let me put it in my words and tell me. You 
are reporting that they haven't done it?
    Mr. Johnson. Correct.
    Mr. Shays. You are not passing judgment whether they should 
do it or not do it?
    Mr. Johnson. Correct.
    Mr. Shays. But I don't understand why that wouldn't be part 
of what you can do. You make recommendations.
    Mr. Johnson. Well, our recommendation as it stands is that 
the State Department comply with the congressional mandate but 
also that the Congress revisit this to make a determination as 
to what----
    Mr. Shays. Then why do you want Congress to revisit it?
    Mr. Johnson. Because in the past 10 years, when we did our 
review, there has been not any compliance with respect to that 
mandate.
    Mr. Shays. So that's an indication to you that either ATA 
doesn't have the capability or Congress doesn't have the 
interest to have it done?
    Mr. Johnson. Correct.
    Mr. Shays. OK, that's interesting.
    Is GAO aware of any report like this done by another 
government agency.
    Mr. Johnson. Not with respect to the U.S. efforts to combat 
terrorism broader----
    Mr. Shays. When you think about it, wouldn't it have been 
good in 1996, 1997, 1998, 1999, 2000, 2001 that we did this to 
be able to have some sense of where we were?
    Mr. Johnson. Well, also let me note that, prior to 1996, I 
believe the State Department was submitting annual reports to 
the Congress on the U.S. efforts to combat terrorism, meaning 
bringing all the information from all the agencies together 
prior to when it was not done in 1996.
    Mr. Shays. Is there any question that our committee should 
have asked you, Ms. Tibbetts, or to you as the coordinator, or 
to you as the GAO, any question that like stares us in the face 
that we should have asked?
    My staff is giving me one, but let me test you all. Is 
there? Is there a question that we should be addressing that we 
haven't brought up?
    Mr. Johnson. Well, I think you've covered most of what we 
have in our report.
    Mr. Shays. OK. There's nothing that you would be asking if 
you were up here?
    Mr. Johnson. Well, what I would ask is, what has----
    Mr. Shays. It's kind of hard to get an answer----
    Mr. Johnson. What is the status of the State Department's 
compliance or followup on GAO's recommendations that were made.
    Mr. Shays. OK.
    That's a great question, so I ask that question. What's the 
answer?
    Ms. Abercrombie-Winstanley. The answer is we have begun to 
followup on the recommendations, again by adding positions 
within S/CT and DS, and I'll let Linda speak to that, Ms. 
Tibbetts, to get involved in the needs assessments, to relook 
at how we put them together in Washington and working with DS 
to make sure that the understanding of what is success is 
understood in the field as well as in Washington. And again, 
I'll let Linda talk about the details.
    Mr. Shays. If we had a hearing 4 months from now, would we 
have the answers to this, would you be there, or what kind of 
time line are you working on?
    Ms. Abercrombie-Winstanley. Four months from now, I believe 
we would have answers, clear answers, but we may indeed have 
them now. I'll let Ms. Tibbetts speak.
    Ms. Tibbetts. Sir, as a result of the GAO audit, there are 
a couple operational followups that ATA has performed. And I 
think we've made great progress, and I think Mr. Johnson would 
be pleased.
    He focused basically on our sustainment efforts and our 
efforts to institutionalize our training. And we've devoted a 
lot more resources and reorganized as a result of that. So if I 
may just briefly bring you up to speed as far as the 
establishment of some metrics that ATA has done to be able to 
measure our results with our partner nations.
    Basically, we've written a standard of operating 
procedures. We've established a new position, the professional 
capacity development coordinator, and that's his whole job. We 
may actually, if we get the funding, have a couple more hired 
to conduct this, because as was pointed out to us, we're really 
not doing the full benefits to our program unless we can 
institutionalize this capacity for these countries to absorb it 
and to start training on their own. So as a result of these 
recommendations, an example of training capacity includes the 
numbers of antiterrorism courses offered by our partner 
nations.
    We will go back now, and on a program review, we will see 
how they have absorbed the training and how they've set up and 
institutionalized the training. And we're also looking at 
comprehensiveness of their curriculum, their level of expertise 
of their instructors, the extent and depth of their in-service 
training. And we've piloted this program in one of our larger 
in-country programs in Colombia, as Gina referred to, that 
we're turning over to the Colombians at the end of the fiscal 
year. They're going to run the program, the training itself, 
and they're going to budget for it. So we are working toward 
that goal.
    Mr. Shays. Thank you.
    Well, I do have a followup if you don't mind.
    Just in terms of sustainability, when you hear that answer, 
what, Mr. Johnson, would you be asking?
    Mr. Johnson. Well, I think that's a step in the right 
direction. Sustainability was a key issue that we discovered 
was sort of a deficiency when we went out and visited some of 
the countries we were including in our review. Let me give you 
an example.
    In Kenya, in particular, we were made aware that was going 
to become sort of a regional training hub. However, when we 
spoke to the Kenyan government officials and the official 
program manager for ATA in that particular country, 
sustainability wasn't even on their radar. They felt as if they 
didn't have all the antiterrorism assistance that they needed 
before you wanted to make that leap and make them sort of a 
regional hub.
    So that's why we highlighted that along with the other 
information we collected on the other countries, the need for 
focusing on and including sustainability as a part of your 
efforts when you are providing the millions of dollars in 
assistance. As a part of that, you need to include a focus on 
sustainability and building capacity. So to hear Ms. Tibbetts 
note that, it's a step in the right direction.
    Mr. Shays. Well, then I just conclude by saying we need to 
have some sustainability on this committee in terms of 
following up. So I will make it part of my effort to have staff 
check in to see how you all are doing.
    And the beauty of being there only a month and a half is 
you don't have to apologize for the past; you got a clean 
slate. And you obviously have an extraordinary record in an 
area that is very important to our country.
    So I thank both of you.
    And I thank GAO.
    And thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    So the way I wrap this up here and look at it, we just 
discussed the idea of looking at outcomes, the effectiveness, 
the sustainability, and that's in gear. You're moving in that 
direction, and we're going to check.
    The priorities end of it, you think you've got something in 
place on that, and you're going to start working in the field a 
little bit more and getting involved yourself in trying to 
identify where these priorities are and making sure the money 
gets to where it ought to go.
    And we're going to get a fuller explanation. I hope you 
might be able to submit to us in writing about how the 13 got 
on the list and the 10 got off. If we can get more specifics on 
that, I would greatly appreciate that. I'm very curious as to 
how that happens if we really do have a system of 
prioritization in place on that.
    The other issue I think that there was a question about 
whether or not we were looking at the countries, particular 
countries we were trying to help, their goals, their 
objectives, their training priorities and then using a needs 
assessment on that program to effectively plan our own efforts 
on that.
    Do you feel you're doing that now Ms. Abercrombie-
Winstanley?
    Ms. Abercrombie-Winstanley. I do.
    Mr. Tierney. You do.
    Ms. Tibbetts. I certainly believe we are.
    Mr. Tierney. So if you reported back to Mr. Johnson, you 
would say, we took that advice and here is what we have done in 
response to that?
    Ms. Tibbetts. Absolutely.
    Mr. Tierney. Is it something that you've done in response 
to the GAO report, or do you think you've been doing it all 
along and he just missed it?
    Ms. Tibbetts. Actually, and this is--Mr. Johnson and I, I 
think, had a conversation about this. We had been doing this in 
spotty areas in certain countries. Obviously, Mr. Johnson 
looked at the in-country programs where it's not as prevalent.
    But since that time though--and it was good that he pointed 
that out, because we have gone back to our program managers to 
make sure that we're doing it in all of our countries.
    Mr. Tierney. I think the wording that Mr. Johnson used was, 
``it wasn't consistently done.'' So I think he did----
    Mr. Johnson. Correct.
    Mr. Tierney. So you're going to make sure that happens all 
the way across on that, and that would do it.
    Ms. Tibbetts. Absolutely.
    Mr. Tierney. I hope this has been helpful for the 
Department. I want to thank GAO and all the people associated 
with the report. Again, this is the type of effort that we 
think can be constructive if everybody works on it.
    It's a program, as I mentioned in my opening remarks, that 
I think is critical, when, particularly in Afghanistan and 
Pakistan, as I mentioned, we're going to make sure it doesn't 
overlap with other programs. And there have been some problems 
with a number of our departments that are stepping all over 
each other on efforts like that.
    But there's no way we can get to the bottom of the 
corruption in those countries and get to the other larger 
issues if they don't think they have reliability in their 
police forces, in their judges, in their prosecutors and things 
of that nature, and it's just a mess. They have a capacity 
issue, which is first and foremost. They don't have the judges. 
They don't have the prosecutors. They don't have the system to 
train them.
    Ms. Tibbetts. Sir, in that respect, too, we have been 
reaching out to other agencies. The Department of Justice, we 
take them along on our needs assessments now, too, so they can 
work on the judicial reform type aspects as well, too. So 
interagency that Gina pointed out, we're really reaching out to 
other law enforcement agencies to try to get their take on--
security for the airports, TSA comes with us. The Coast Guard 
does our program in Kenya for the coastal security. So we have 
recognized that we need other law enforcement areas of 
expertise on this.
    Mr. Tierney. It's a huge issue, and it's so mind-boggling 
on that. But I think it's do-able. I think some of this advice 
was good. It sort of helps you frame it and then tying into 
what you're going to do and knock them off in little pieces so 
you don't feel overwhelmed by it. And I hope you found it 
helpful in that regard.
    I also note, Mr. Turk, our staff director, indicated that 
you have some issues or some success stories that are probably 
classified. I think it would be good for this committee to hear 
them or see them. So if you make a decision, whether you would 
like to put them in writing to us or have a briefing with our 
staff from both sides or whatever, whichever way is easier for 
you to communicate that conversation, if you want to loop it 
into Mr. Johnson's group, we'll be happy to do that. And we 
want to get that information because we want the full picture, 
and we appreciate it.
    Mr. Shays, if you have no other comments, I want to thank 
all of you. It has been a brief hearing but one of the more 
effective ones in terms of getting a program in the right 
direction.
    Ms. Abercrombie-Winstanley, good luck in the future months 
on that.
    Ms. Tibbetts, thank you for continuing to do a good job.
    Mr. Johnson, again, thank you and your team for doing a 
terrific job all the time for us.
    Thank you. The meeting is adjourned.
    [Whereupon, at 11 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
